             Postal Service Revenue:
     Structure, Facts, and Future Possibilities




                             October 6, 2011




Prepared by U.S. Postal Service Office of Inspector General
            Risk Analysis Research Center
            Report Number: RARC-WP-12-002
U.S. Postal Service Office of Inspector General                               October 6, 2011
Postal Service Revenue                                                       RARC-WP-12-002



                          Postal Service Revenue:
                  Structure, Facts, and Future Possibilities


                                       Executive Summary

The Postal Service’s future financial health depends on its ability to cut costs and
generate sufficient revenue to support its operations. In the past, volume growth paid for
expansion of the delivery network. Now, new digital technologies are transforming the
communications marketplace by delivering information instantaneously, regardless of
distance, at a decreasing cost. Because of this profound change, postal services
operate in a new business environment that simultaneously threatens traditional mail
segments and creates novel opportunities.

The Postal Accountability and Enhancement Act (PAEA) became law in 2006, the same
year that mail volumes reached a high point of 213 billion pieces. Soon after, the
economic recession triggered decreases in spending and declines in mail volume. At
the same time, the move to electronic delivery alternatives accelerated, as mailers
looked to save costs and increase time responsiveness. Finally, the precipitous loss of
volume and revenue exposed the costly retiree health benefit prefunding requirement
established by PAEA, and the Postal Service began to suffer through record economic
losses and was unable to raise market dominant product prices due to the CPI-based
cap.

In the context of this very difficult financial situation, this paper will analyze the major
components of the Postal Service’s revenue structure in fiscal year (FY) 2010 as well as
substantive product, business segment, and customer trends. Next, it will assess
existing opportunities to extract further value from its core business as well as to explore
new initiatives permissible under the existing framework. Finally, it will discuss future
options and policy considerations in a new era. Just as other organizations have
responded to volume declines in their core products and services, the Postal Service
could benefit from an aggressive response. Ultimately, the path forward may require a
new strategic direction that offers products and services that meet America’s changing
needs.

In our discussion of Postal Service revenue, we present 10 key points:

1. Four main product lines — First-Class Single Piece, First-Class Workshare,
   Standard Regular, and Standard Enhanced Carrier Route (ECR) — provided
   75 percent of revenue, 94 percent of volume, and 86 percent of contribution in
   FY 2010.

2. Advertising mail is a strong, potentially significant growth opportunity. The
   Winterberry Group estimates that direct mail advertising will increase by 5.8 percent



                                                  i
U.S. Postal Service Office of Inspector General                                                        October 6, 2011
Postal Service Revenue                                                                                RARC-WP-12-002


    in 2011. Once mail volume rebounds, the Postal Service must again be sensitive to
    the return of “Do Not Mail” campaigns and environmental concerns related to
    perceived excessive solicitations.

3. Although the Postal Service infrastructure serves the entire nation, large business
   mailers generate the majority of revenue. In FY 2010, commercial mailers accounted
   for 73 percent of total revenue and a tiny fraction of the top one percent alone
   generated about half of total revenue.1

4. Despite encouraging growth, the Expedited and Package Services (EPS) segment
   contains strong competitors with significant market power. The Postal Service
   earned 15 percent of its revenue from these categories in FY 2010. Even with robust
   growth, it is extremely unlikely that EPS revenue can offset the projected declines in
   First-Class Mail (FCM).

5. The Postal Service’s latest product proposals and offerings are innovative, rooted in
   its core business, and leverage opportunities within existing product lines. However,
   it is important that the discount-based proposals do not unnecessarily put
   contribution at risk.

6. As mail volumes decline, collecting accurate revenue will become increasingly
   essential for survival. Simplifying and streamlining standards, products, and pricing
   structures can reduce complicated rules and systems and attract new mailers.

7. Under the current price cap rules, the Postal Service and the Postal Regulatory
   Commission (PRC) lack the practical flexibility to adjust prices to ensure that
   revenue covers costs for major product areas, as mandated by PAEA.

8. Experts anticipate that mail volumes will decline by between 15 and 34 percent by
   2020. Either prediction supports the argument that, in addition to cost-cutting
   measures, substantive changes to the revenue structure are necessary to put the
   Postal Service on sound financial footing and continue supporting the universal
   service obligation (USO).

9. Most foreign posts view diversification as necessary to survival and derive at least
   40 percent of their revenue outside the traditional hard-copy mail business. The
   Postal Service has an undiversified portfolio with only about 15 percent of its
   revenue from non-mail sources.

10. Our analysis suggests that in the long term, the Postal Service must have the
    flexibility to reduce costs and increase revenue or risk greatly narrowing the scope of
    self-funded, hard-copy universal service for the American people.



1
  Some of these top customers are third-party consolidators who handle the mail of numerous other customers
(original mail owners). Nonetheless, it is the consolidator who is dealing directly with the Postal Service and is paying
postage.


                                                            ii
U.S. Postal Service Office of Inspector General                                                               October 6, 2011
Postal Service Revenue                                                                                       RARC-WP-12-002




                                                Table of Contents

Revenue Structure, Facts, and Trends............................................................................ 1 
          Revenue by Product ............................................................................................. 1 
          Revenue by Business Segment............................................................................ 5 
          Revenue by Customer Segment......................................................................... 11 

Revenue Possibilities under the Existing Framework .................................................... 13 
          Revenue Assurance ........................................................................................... 13 
          Pricing Enhancements ........................................................................................ 14 
          Marketing and Product Development Opportunities ........................................... 17 

Revenue Possibilities under an Alternative Framework ................................................ 20 
          Barriers to the Path Forward............................................................................... 20 
          Possibilities under an Alternative Framework ..................................................... 22 

Conclusion .................................................................................................................... 24 




                                                                iii
U.S. Postal Service Office of Inspector General                                                            October 6, 2011
Postal Service Revenue                                                                                    RARC-WP-12-002


                                                       Tables

Table 1             Revenue, Volume, and Contribution by Product, FY 2010 .................... 2 

Table 2             Selected First-Class Mail and Standard Mail Categories,
                    FY 2010 ................................................................................................. 3 

Table 3             Revenue by Business Segment, FY 2010 ............................................. 6 

Table 4             Total U.S. Advertising Expenditures by Media in 2010 .......................... 8 

Table 5             First-Class Mail Support of Delivery Network ...................................... 13 

Table 6             UPS Fuel Surcharges, FY 2008 to FY 2010 ........................................ 16 

Table 7             Examples of Initiatives Feasible under Current Framework ................ 19 


                                                      Figures

Figure 1:           Revenue and Volume Shares, FY 2010 ................................................ 1 

Figure 2:           Revenue per Pound, by Mail Class ....................................................... 3 

Figure 3:           Four-Year Volume Trend, FY 2006 to FY 2010 ..................................... 4 

Figure 4:           Mail Volume by Class, FY 2003 to FY 2010 .......................................... 5 

Figure 5:           Share of Revenue by Business Segment, FY 2010............................... 6 

Figure 6:           How Much Ad Mail Is Too Much? .......................................................... 9 

Figure 7:           Domestic Mail Revenue by Entry Point, FY 2010 ................................ 14 

Figure 8:           Value-Based Versus Cost-Based Pricing ............................................ 16 

Figure 9:           Proportion of Non-Mail Revenue, by Post ........................................... 23 


                                                  Appendices

Appendix A          Postage Payment Methods ................................................................. 26 

Appendix B          Market Dominant Money Losing Products 2010 .................................. 27 

Appendix C          Nominal Prices for Letter Mail within Europe ....................................... 28



                                                            iv
U.S. Postal Service Office of Inspector General                                                     October 6, 2011
Postal Service Revenue                                                                             RARC-WP-12-002




                           Postal Service Revenue:
                   Structure, Facts, and Future Possibilities


Revenue Structure, Facts, and Trends
This section of the paper examines Postal Service revenue structure by product,
business application, and customer segment. It also summarizes facts and trends
related to revenue.

Revenue by Product

The Postal Service’s line of products has evolved since its founding. However, First-
Class Mail (FCM) remains the flagship product and accounts for the majority of Postal
Service revenue. Standard Mail, which has primarily been advertising, is the largest
product by volume. As Figure 1 shows, these two mail classes accounted for 77 percent
of revenue and 94 percent of volume in FY 2010. As currently structured, the viability of
the Postal Service continues to rely on the resilience of hard-copy mail in an
increasingly electronic age.

                               Figure 1: Revenue and Volume Shares, FY 2010

                     Revenue Share                                Volume Share
              Total Revenue FY 2010: $67.1 Billion        Total Volume FY 2010: 170.6 Billion Pieces

                 Other                                         Other
                                                                       6%
                         23%


                                  77%     First Class &                       94%         First Class &
                                          Standard                                        Standard
                                          Mail                                            Mail




Source: U.S. Postal Service, Cost and Revenue Analysis (CRA) and Revenue, Pieces, and Weight (RPW)
        Report, FY 2010.



FCM is critical to the financial viability and essential mission of the Postal Service, yet it
is declining at an alarming rate. Since reaching its peak in 2001, FCM volume has
declined an unprecedented 25 percent to 78 billion pieces. Last year, Boston Consulting
Group (BCG) projected a further decline to 53 billion pieces by 2020.2 The cause for

2
 The Boston Consulting Group, “2020 forecast sees ongoing decline in First-Class Mail,”
http://about.usps.com/future-postal-service/bcg-selected-slides.pdf, p. 3.


                                                          1
U.S. Postal Service Office of Inspector General                                                      October 6, 2011
Postal Service Revenue                                                                              RARC-WP-12-002


alarm is real, as FCM has historically been the primary product to finance the Postal
Service’s fixed cost delivery network. Even in 2010, FCM alone provided approximately
66 percent of the Postal Service’s total financial contribution or profit.3 For every FCM
piece lost, it takes an average of three pieces of Standard Mail to replace its
contribution.4 In addition, FCM is one of the flagship products that justify the Postal
Service’s status as a government entity with monopoly protection in order to meet the
universal service obligation (USO).

While the Postal Service can certainly improve its offerings and has a number of
potential growth areas, there is not enough revenue in other existing product areas to
make up for significant declines in FCM and Standard Mail. Table 1 shows detailed
information on revenue, volume, and profit contribution by major mail category.

                   Table 1: Revenue, Volume, and Contribution by Product, FY 2010
                                         Revenue          Volume      Revenue/ Contribution
         Mail Class                  (millions) share (millions) share Piece (millions) share
         First-Class Mail              $34,026 51%       78,549 46%       $0.43 $16,950 66%
         Standard Mail                  17,331 26%       82,524 48%        0.21   5,512 22%
         Priority Mail                    5,657   8%         809   0%      6.99   1,410   6%
         Package Services                 1,516   2%         659   0%      2.30    -185 -1%
         Periodicals                      1,879   3%       7,269   4%      0.26    -611 -2%
         International Mail               1,490   2%         271   0%      5.46     513   2%
         Express Mail                       828   1%          43   0%     19.46     332   1%
         Parcel Select                      569   1%         297   0%      1.92     149   1%
         Other Mail                           0 —-           153   0%    —-           0   0%
         Subtotal Mail                 $63,296 94% 170,574 100%                 $24,070 94%
         Special Services/Other           3,781   6%         N/A        N/A       1,430   6%
         Total                         $67,077 100% 170,574 100%                $25,500 100%
         Note: Share percentage may not total due to rounding.
         Source: U.S. Postal Service, Cost and Revenue Analysis (CRA) and Revenue, Pieces, and Weight
                 (RPW) Report, FY 2010.



While Table 1 presents the total revenue per piece and contribution by major mail
category, analyzing revenue per pound allows a reasonable “apples-to-apples”
comparison since piece weight varies considerably between categories. Figure 2
highlights the dramatic differences in revenue per pound across the four major mail
classes and yields some interesting insights. For example, while many have asserted
that Periodicals lose money because of high costs, a major contributor could be its low
revenues. It is interesting to note that FCM generates more than 13 times as much
revenue per pound as Periodicals. And this is true despite the fact that beyond
transportation, where Periodicals is fully a ground product, both receive expedited
handling.



3
  Contribution can loosely be defined as “profit.” Technically, it represents revenue minus volume variable and
product-specific costs.
4
  U.S. Postal Service, Cost and Revenue Analysis (CRA), FY 2010.


                                                          2
U.S. Postal Service Office of Inspector General                                                                           October 6, 2011
Postal Service Revenue                                                                                                   RARC-WP-12-002

                                  Figure 2: Revenue per Pound, by Mail Class


                                                        $10      $9.21
                                                         $9
                                                         $8




                                    Revenue per Pound
                                                         $7
                                                         $6
                                                         $5
                                                         $4
                                                         $3
                                                                                 $1.85
                                                         $2
                                                                                           $0.90         $0.68
                                                         $1
                                                         $-
                                                         $0
                                                               First Class   Standard     Package      Periodicals
                                                                   Mail        Mail       Services
                           Avg. weight per piece:                 0.8 oz         1.8 oz   40.6 oz        6.3 oz


Source: U.S. Postal Service, Revenue, Pieces, and Weight (RPW) Report, FY 2010.



First-Class Mail and Standard Mail Trends
Although the Postal Service’s line of products has grown and evolved over the years,
FCM and Standard still represent 88 percent of total contribution.5 Table 2 presents the
Postal Service’s revenue, volume, and contribution for the four major segments of FCM
and Standard.

               Table 2: Selected First-Class Mail and Standard Mail Categories, FY 2010
                                                                                                                       Profit
                                                              Revenue                     Volume                     Contribution

      Category                              (millions)                share   (millions)             share (millions)        share
      First-Class Single-Piece                 $16,408                    24%      30,957               18%   $5,769            23%
      First-Class Workshare                      16,570                   25%      46,912               28%   10,753            42%
      Standard Regular                           12,386                   18%      56,033               33%     3,339           13%
      Standard ECR                                4,808                    7%      26,220               15%     2,074            8%
      Total                                    $50,172                    75%    160,122                94% $21,935             86%
       Note: Share percentage may not total due to rounding.
       Source: U.S. Postal Service, Cost and Revenue Analysis (CRA) and Revenue, Pieces, and Weight
               (RPW) Report, FY 2010.



In terms of volume, all four categories experienced double-digit declines between
FY 2006 and FY 2010, although Standard stabilized in 2010 and grew significantly in
early 2011. Of particular concern is First-Class Single-Piece volume, which fell
30 percent since FY 2006. Figure 3 illustrates this alarming trend.


5
  Total mail class contribution for FCM and Standard includes Inbound and Outbound International as well as fees
that are not associated with individual subclasses. This accounts for the different profit contributions of the full class
(88 percent) versus the major sub-segments (86 percent).


                                                                             3
U.S. Postal Service Office of Inspector General                                                  October 6, 2011
Postal Service Revenue                                                                          RARC-WP-12-002

                         Figure 3: Four-Year Volume Trend, FY 2006 to FY 20106




Source: U.S. Postal Service, Cost and Revenue Analysis (CRA) and Revenue, Pieces, and Weight (RPW) Report,
        FY 2010.



Since FY 2007, total FCM volume declined 18 billion pieces. In FY 2010 alone, FCM
declined 5.6 billion pieces or 6.5 percent7 with Single Piece decreasing by 9.8 percent
and Presort declining by 4.2 percent.8 According to BCG’s inflation-adjusted projections,
the revenue per delivery point per day for FCM averaged $1 in 2000, fell to 70 cents in
2009, and will continue to decline to 40 cents by 2020.9 In addition to the revenue per
delivery point implications, the Postal Service built its current network to process and
deliver FCM. The decline in FCM threatens the organization’s original governmental
structure and its underlying monopoly protection.

Standard Mail Cannibalizing First-Class Mail
Standard Mail volume surpassed FCM for the first time in FY 2005. BCG concluded that
much of the FCM volume loss during the economic downturn will return as less
profitable Standard Mail.10 Figure 4 suggests that mailers may already be making the
shift from FCM to Standard, despite Standard’s higher requirements for mail preparation
and the lack of features such as free forwarding.




6
  We use the former mail class-related names to allow comparison of data from previous years.
7
  U.S. Postal Service, Cost and Revenue Analysis (CRA), FY 2010, p. 17.
8
  OIG analysis of postal domestic volume history, 2010, and RPW reports
9
  The Boston Consulting Group, Projecting U.S. Mail Volumes to 2020 Final Report Detail, March 2, 2010,
http://about.usps.com/future-postal-service/bcg-detailedpresentation.pdf, p. 12.
10
   The Boston Consulting Group, Projecting U.S. Mail Volumes to 2020, March 2, 2010, http://about.usps.com/future-
postal-service/gcg-narrative.pdf, p. 2.


                                                        4
U.S. Postal Service Office of Inspector General                                                                              October 6, 2011
Postal Service Revenue                                                                                                      RARC-WP-12-002

                                                          Figure 4: Mail Volume by Class, FY 2003 to FY 2010


                                                  110


              Mail Volume in Billions of Pieces
                                                  100




                                                   90



                                                                                                                    First Class
                                                   80                                                               Standard Mail




                                                   70




                                                   60
                                                        2003   2004   2005   2006      2007    2008   2009   2010

                                                                                    Year

Source: U.S. Postal Service Annual Report, 2003-2010.

A number of factors make Standard a viable replacement for FCM. Mail rule changes
permit many types of documents that were formerly sent via FCM to be sent Standard.
For example, while corporate annual reports and similar documents were formerly sent
FCM or Priority Mail, most are now delivered via Standard or offered electronically.11
Moreover, by using drop ship services, mailers can get service levels equal to or even
better than FCM, at a greatly reduced price. Soon, service performance measurements,
like the Intelligent Mail barcode (IMb), will provide track and trace capabilities as well as
critical data.12 Even with an economic recovery, business mailers will use Standard Mail
because of the lack of cost-justified differentiation in service relative to FCM. At about
7 cents per piece instead of 22 cents per piece for FCM, Standard Mail provides less
than one-third the profit contribution per piece towards funding the Postal Service’s
network.13 Therefore, it takes more than three pieces of Standard to cover the loss of
only one average piece of FCM.

Revenue by Business Segment

Even though profit contribution is the real issue, examining revenue by industry usage
categories also yields interesting insights. Table 3 and Figure 5 present revenue by
business use of the mail. The correspondence and transactions segment, which
includes mail such as statements, payments, cards, and letters, is the largest revenue
11
   UPS Mail Innovations aggregates many annual reports and delivers them via Standard Mail.
12
   “Rationalizing postal costing in the 21st century,” Postal Journal, April 28, 2011.
http://postaljournal.com/2011/04/28/rationalizing-postal-costing-in-the-21st-century/.
13
   U.S. Postal Service, Cost and Revenue Analysis (CRA), FY 2010.


                                                                                           5
U.S. Postal Service Office of Inspector General                                                    October 6, 2011
Postal Service Revenue                                                                            RARC-WP-12-002


segment. However, this segment is the most vulnerable to losses from electronic
alternatives. About one-third of all revenue comes from advertising, but this volume
represented 59 percent of all mail received by households in 2010.14 The third-largest
segment, expedited and package products, comprises a much lower proportion of
revenue, but is part of a growing, competitive market.
                               Table 3: Revenue by Business Segment, FY 2010
                                          Revenue
                  Business Segment        (billions)                   Description
                 Correspondence            $ 29        Letters, cards, notices, financial
                 and Transactions                      documents, bills, statements, payments,
                                                       and donations
                 Advertising                   20       Customer acquisition and promotions
                                                       (First-Class advertising and Standard)
                 Expedited and                 10      Express Mail, Priority Mail, packages,
                 Package Services                      and printed matter
                 Periodicals                    2      Magazines and newspapers
                 International                  2      All international
                 Other                          4      Special Services and others
                 Total                       $ 67
               Source: Estimated based on U.S. Postal Service Cost and Revenue Analysis
                       (CRA), FY 2010, Household Diary Study, FY 2010, and OIG analysis.


                         Figure 5: Share of Revenue by Business Segment, FY 2010


                                           Total Revenue FY 2010: $67 billion



                      Periodicals 3%
                 International 3%


                                                              Advertising
                                                                    30%


                                        Correspondence
                                        and Transactions
                                                    43%

Source: Estimated based on U.S. Postal Service Cost and Revenue Analysis (CRA), FY 2010, Household Diary
        Study, FY 2010, and OIG analysis.


14
   U.S. Postal Service, The Household Diary Study: Mail Use & Attitudes in FY 2010, April 2011,
http://www.prc.gov/docs/73/73501/USPS_HDS_FY10_FINAL_.pdf, p. 40.


                                                          6
U.S. Postal Service Office of Inspector General                                                      October 6, 2011
Postal Service Revenue                                                                              RARC-WP-12-002


Correspondence and Transactions
Correspondence and Transactions has historically been the most important segment
due to its size and profitability. In the past, it was the least affected by economic swings
but now is the most susceptible to electronic diversion. This trend is most pronounced in
FCM Single Piece, which has declined significantly since the early 1990s. Once the
dominant product, it accounts for less than 20 percent of mail volume today.15 Personal
correspondence (e.g., greeting cards, letters) experienced average annual declines of
3.7 percent in the last decade16 and 12.2 percent from FY 2008 to 2010.17 Yet half of all
correspondence is actually business-to-household mail,18 which historically exhibited
more resilience to diversion; however, much of this portion may gradually shift to
electronic alternatives in the relatively near future.

In terms of transactional mail, the traditional bellwether of the economy and determinant
of First Class Mail trends, bills and statements showed no overall decline from 2002 to
2007, although per household decline did occur.19 The housing and credit bubble likely
fueled the growth of FCM in the early 2000s. However, bills and statements then started
to fall after a long period of relative stability. Between 2008 and 2010, declines
increased at a 7.2 percent compound annual growth rate (CAGR)20 and resulted in a
total decline of 13.8 percent over the period.21 Changing business practices prompted
by the economic downturn, not e-diversion, appear to be the primary driving forces
behind this development.

                                     Recent trends for bill presentment — bills and
     Because of the large volume     statements sent to customers — differ from the
     and high profitability, losing  trends for bill payments sent by customers. In 2010,
     bill presentment to electronic  for the first time, fewer than half of all bills were paid
     alternatives has dire revenue
                                     by mail,22 reflecting changes in household payment
     implications for the Postal
     Service.
                                     practices. On the other hand, customers are still
                                     reluctant to give up free hard copy bills and
statements in favor of online versions. In 2010, only 9 percent of presentments were
solely online.23 Consumers reducing consumption and consolidating their credit cards,
and businesses bundling bills such as landline, mobile, and cable, caused much of the
recent decline in presentment.

The Postal Service could monitor conversion rates to anticipate a shift to greater online
adoption, as bill and statement presentment are extremely vulnerable to future
electronic diversion. Mailers may find it hard to get customers to give up this “freebie”
and, in fact, printed statements continue to provide value to businesses as a customer


15
   OIG analysis of The Household Diary Study and RPW reports.
16
   U.S. Postal Service, The Household Diary Study: Mail Use & Attitudes in FY 2010, Table A8-1.
17
   Ibid., p. 24.
18
   Ibid., p. 27.
19
   Ibid., Table A8-1.
20
   Infotrends, Addressing the Decline in First-Class Mail- Analysis of Trends Driving Change, July 2011, p. 7.
21
   U.S. Postal Service, The Household Diary Study: Mail Use & Attitudes in FY 2010, p. 29.
22
   Ibid., p. 33.
23
   Ibid.


                                                           7
U.S. Postal Service Office of Inspector General                                                    October 6, 2011
Postal Service Revenue                                                                            RARC-WP-12-002


relationship tool.24 Nonetheless, mailers will continue to look for ways to migrate users
online since digital transaction costs are a fraction of mailing costs.25 Punitive measures
like presentment surcharges to receive hard copies could be the next step. Because of
the large volume and high profitability of this mail segment, losing bill presentment to
electronic alternatives has dire revenue implications for the Postal Service.

Advertising Mail
Advertising mail provides a potentially significant opportunity for the Postal Service to
increase revenue. In support of McKinsey’s 2010 Ensuring a Viable Postal Service for
America, the BCG projected an approximate 18 percent increase in Standard Mail letter
volume through 2020.26 Table 4 presents total U.S. advertising expenditures by
traditional as well as direct and digital media in 2010. Notably, direct and digital
advertising spending is on the rise. Winterberry Group estimated a 6.2 percent increase
to $163.9 billion in 2011 and projected that total direct mail spending would increase by
5.8 percent to $47.8 billion in 2011.27

                     Table 4: Total U.S. Advertising Expenditures by Media in 2010
                      Media                      2010 Expenditure            Change from
                                                 by Media (billions)            2009
                      TRADITIONAL
                      OUTDOOR                            $ 6.1                   -0.5%
                      RADIO                             $13.5                    -4.4%
                      MAGAZINES                         $14.6                    -6.2%
                      NEWSPAPERS                        $23.4                    -9.2%
                      CINEMA                              $0.6                    2.3%
                      TELEVISION                        $56.4                    17.5%

                      DIRECT AND DIGITAL
                      INSERT MEDIA                       $0.8                     2.4%
                      PRINT                             $15.0                    -3.6%
                      BROADCAST TV                      $23.6                     3.8%
                      DIGITAL                           $27.7                     8.5%
                      DIRECT MAIL                       $45.2                     3.1%
                      TELESERVICES                      $39.5                     0.1%
                      OTHER                              $2.6                     6.1%


                      TOTAL                           $269.0                      2.9%

                    Source: Winterberry Group. Outlook 2011: What to Expect in Direct &
                            Digital Marketing, January 2011.

Many advertisers value mail because it affords them measurability of effectiveness as
well as a geographic and demographic data link. Since 1990, according to Magna
Advertising Group, direct mail’s share of total advertising has been relatively consistent
24
   Studies indicate customers still prefer receiving bills in hard copy due to archival, ease-of-use, security, and
payment reminder attributes.
25
   In addition to postage costs, total mailing costs include printing, production, and creative costs.
26
   The Boston Consulting Group, Projection of US mail volume to 2020 Compendium, December 18, 2009, slide 91.
27
   Bruce Biegel, “Outlook 2011: What to Expect in Direct & Digital Marketing”, Winterberry Group, January 13, 2011.
slide 12.


                                                         8
U.S. Postal Service Office of Inspector General                                                        October 6, 2011
Postal Service Revenue                                                                                RARC-WP-12-002


while other traditional media’s shares have significantly decreased.28 Now, a new
opportunity emerges as many advertisers are combining their mail and online
campaigns to better reach their customers.29

However, a number of threats may limit this opportunity. For example, unwanted mail
and associated environmental concerns (perceived and real) shape and frame the
public opinion of advertising mail. Some consumers seem to resist unwanted mail, and
increasingly associate unwanted mail with waste. (A corollary of this may prove to be
true; consumers accept more advertising mail when it is targeted to their interests and
preferences. Figure 6 illustrates this phenomenon.) The usefulness of mail to the sender
may eventually exceed the recipients’ tolerance.
                                      Figure 6: How Much Ad Mail Is Too Much?


                                   Will there be any                       Optimal
                                   inflection point?                        Point


                                                                                         Sender’s
                                                                                         Utility
                   Communication




                                                                             Conflict
                      Utility of




                                                                              Area


                                                                                        Recipient’s
                                                                                        Tolerance

                                   Growth              Saturation     Dissatisfaction
                                    Area                 Area              Area
                                                 Volume of Communication


Source: Pitney Bowes Research Project, Electronic Substitution for Mail: Models and Results; Myth and Reality.
        Originally from Nikali and Elkelä, 2003.

The Postal Service has a strong interest in delivering advertising mail that satisfies both
senders and recipients. Although a “Do Not Mail” backlash has not yet occurred, this
should be a perennial concern for the Postal Service. Some believe the market will
naturally address this since marketers will only send advertising mail to the extent it is
effective in finding customers. However, the Postal Service may have a role in striking a
balance between advertisers’ utility in sending and the recipients’ tolerance in receiving
advertisements. By proactively responding to concerns, researching recipient tolerance,
and tracking changes in consumer attitudes, the Postal Service can foster consumer
choice and increase the value of direct marketing by encouraging targeted advertising.
Mailers could develop more accurate lists of the types of mail customers want to
receive. Finely targeted advertising may be an effective way to mitigate recipient
concerns, increase value to consumers, and maintain mail as a highly effective medium
without adversely affecting overall profitability.


28
   U.S. Postal Service, The Household Diary Study: Mail Use & Attitudes in FY 2010, p. 39.
29
   Matthew Swain, “The USPS – History and Opportunity U.S. Postal Review and Emerging Digital
Alternatives,”InfoTrends, (presentation at Postal Vision 2020, Crystal City, VA, June 15, 2011).


                                                               9
U.S. Postal Service Office of Inspector General                                                October 6, 2011
Postal Service Revenue                                                                        RARC-WP-12-002


Perhaps one way to approach this would be to consider raising advertising mail rates. If
one assumes that with fewer mail pieces response rates would improve, there could be
an interesting advertising paradox. If mailers face higher prices, they will mail less but
their response rates could increase.30 It is possible the Postal Service could price
higher, for less volume, but provide more value to all parties — a “win-win-win”. Mailers
could send fewer pieces, but garner higher response rates. The amount of recipient
complaints could decline because “junk” mail perceptions could decrease, as recipients
would be receiving less of what they do not want. The Postal Service would collect more
revenue and profit contribution. Finally, smaller volumes are also consistent with many
of the ongoing opportunities to reduce costs at the Postal Service by shrinking its
footprint.

The Postal Service must also be mindful of how the recent, drastic change in revenue
structure shifts mail from a two-sided to a one-way medium.31 Even successfully
supplementing revenue gaps from FCM with advertising mail has public policy
implications if the Postal Service no longer serves as a two-way medium that links
individuals, businesses, and government together.32 Is there a public need for a one-
way advertising and business-generating pipeline presence to uphold universal service?
To avoid this dilemma, the Postal Service’s advertising mail strategies must focus on
quality, relevance, and effectiveness, rather than volume, to keep customers engaged.

Another consideration is the role of advertising mail and other traditional advertising
media in a new era. The field is still in a state of flux but it is clear that the advertising
pie size and channel slices are changing. The Postal Service must stay abreast of
current trends and anticipate shifting market dynamics that will affect core business
segments.

Expedited and Package Services

BCG projected parcel volume sent by both consumers and businesses will increase by
40 percent by 2020.33 E-commerce is growing, but has not reached its full potential due
to accessibility, returns, payment, and security concerns. Companies that can solve
these shortcomings will garner additional volume.

In 2006, the EPS business of the Postal Service — defined as Priority Mail, Express
Mail, Package Services — as well as First-Class and Standard Mail parcels comprised
almost 12 percent of total revenue. By 2010, this figure grew to approximately
15 percent of revenue.34 This is extremely impressive considering that the Postal
Service faces successful, aggressive, politically active private-sector competitors with
30
   This could be due to less prospecting. Prospecting can find new customers, but generally has much lower
response rates.
31
   Thomas Eisenmann, Geoffrey Parker, and Marshall W. Van Alstyne, “Strategies for Two-Sided Markets,” Harvard
Business Review, October 2006, p. 5.
32
   U.S. Postal Service Office of Inspector General, Implications of Declining Mail Volumes for the Financial
Sustainability of the Postal Service, Report No. RARC-WP-10-006, September 29, 2010,
http://www.uspsoig.gov/foia_files/RARC-WP-10-006.pdf.
33
   The Boston Consulting Group, Projection of US mail volume to 2020 Compendium, December 18, 2009,
http://www.prc.gov/Docs/68/68381/NALC.T2.Q5.BCG.Projections.Redactd.pdf, slide 135.
34
   OIG analysis of U.S. Postal Service, detailed Revenue, Pieces, and Weight (RPW) data, FY 2006 & 2010.


                                                      10
U.S. Postal Service Office of Inspector General                                                   October 6, 2011
Postal Service Revenue                                                                           RARC-WP-12-002


entrenched market share. While this growth provides room for optimism, it is still a
relatively modest piece of total revenue. The core issue regarding EPS business is that
even with robust segment growth, the new revenue is unlikely to reach the scale or
profit level to compensate for the projected declines in FCM, which has historically
covered the Postal Service’s fixed cost delivery network.

The Postal Service’s EPS market share growth faces a number of specific challenges.
First, many customers demand track and trace, which the Postal Service will lack for
every domestic product except Express Mail until IMb is fully deployed. Second, while
customers are interested in lower prices, they are also demanding consistent, time-
definite services. While the Postal Service often offers equal or lower prices, there is a
perception from some in the market place that its service is inconsistent across the
country. Finally, private-sector competitors develop customized shipping solutions to
cater to their largest customer’s needs and lock them into long-term arrangements.

Despite these challenges, there are many opportunities. First, although 5-day delivery
has been discussed as a cost reduction opportunity, the Postal Service currently has
inherent advantages as it delivers to every household 6 days a week without a
surcharge. Merely by accepting and delivering on Saturdays, the Postal Service
dramatically improves its average delivery times relative to the competition. For
example, an item shipped on Thursday with identical two-day service would actually be
delivered in two calendar days (Saturday) by the Postal Service, but four days (Monday)
by a competitor that does not deliver on Saturdays. By averaging such differences
across the week, the Postal Service delivery times average more than one-half a day
faster than the competition. Second, while FedEx and UPS lead the high-volume
business-to-business markets, it can be very expensive for them to deliver single items
to residential addresses and they have instituted surcharges to cover the extra costs.
Along with such “last mile” advantages, the Postal Service also may offer unique
strengths in rural areas and large residential buildings, where it sometimes has special
access. Additionally, new product options, such as the Priority Flat Rate Box, and other
cost-effective deferred (2 to 3 day delivery) products offer a bright spot for revenue
growth in the weak economy. The Postal Service could use this opportunity to
implement improved tracking capabilities and ensure consistent service to retain these
new customers even as the economy improves.

Revenue by Customer Segment

While almost every American is a customer of the Postal Service, commercial
businesses generate about 73 percent, or $49 billion, of total revenue.35 The largest of
those commercial mailers account for an incredibly high proportion of revenue — a tiny
fraction of the top 1 percent of customers account for half of total revenue. The top 50
business customers alone, each of whom spend over $100 million per year with the
Postal Service, generated over 20 percent of revenue and almost 28 percent of volume.
The 20 largest mailers in FY 2010 include shipping service companies, members of the
financial industry, and mail service providers (e.g., presort bureaus and consolidators).

35
     U.S. Postal Service Corporate Business Customer Information Service (CBCIS) for business categories.


                                                          11
U.S. Postal Service Office of Inspector General                             October 6, 2011
Postal Service Revenue                                                     RARC-WP-12-002


In one capacity, this concentration is helpful in that it allows for streamlining mailing
standard changes and addresses key customer concerns efficiently. However, it is
important to note that while “middle men” like mail consolidators can be very good by
serving as a de facto sales force, they do separate the Postal Service from its end
customer, the mail owner. Such separation can prevent the Postal Service from hearing
the core concerns of the mail owner. For example, it could better understand the
different ways that customers use the mail and how the Postal Service could better
meet their needs in an increasingly digital age. Only by staying close to the end
customer and listening to their needs can the Postal Service truly develop products and
services that support their business interests and better serve those customers.




                                                  12
U.S. Postal Service Office of Inspector General                                                    October 6, 2011
Postal Service Revenue                                                                            RARC-WP-12-002


Revenue Possibilities under the Existing Framework
Even under the best-case scenario, FCM is not likely to return to its peak volume levels.
If BCG’s projections are correct, FCM will generate only one piece per delivery point per
day in 2020 compared to about 2.5 pieces in 2000.36 That piece will only contribute 40
cents of the revenue needed to cover the cost of the delivery point or a 43 percent
decline from 2009 to 2020.37 See Table 5 below.

                          Table 5: First-Class Mail Support of Delivery Network

                                                              2000         2009           2020
                  Daily First-Class Mail
                                                              2.5           1.8            1.0
                  Pieces per Delivery Point
                  Daily First-Class Mail
                  Revenue per Delivery Point               $1.00          $0.70          $0.40
                  (inflation-adjusted)
                  First-Class Mail Share of Daily
                                                              56%           50%           40%
                  Revenue

                Source: Boston Consulting Group, “Projecting U.S. Mail Volumes to 2020,”
                        March 2, 2010, p. 12.

With the major revenue stream in jeopardy, the Postal Service could extract further
value from the core business by exploring these strategic avenues: revenue assurance,
pricing enhancements, as well as marketing and product development.

Revenue Assurance

Revenue assurance includes activities or processes that prevent or detect revenue
leakage and ensure all postage is collected. Although a perennial concern, revenue
collection becomes increasingly critical to survival as mail volumes decline.

Revenue Loss
Customers purchase postage in a number of ways. Figure 7 presents entry points for
domestic mail revenue and potential risk areas.38 While the Postal Service collects the
majority of postage it is due, some mail enters the system without payment or with
incorrect payment. Previous work by the Government Accountability Office (GAO) and
the Office of the Inspector General (OIG) cited inadequate policies, procedures, and
training related to collecting postage as well as improperly conducted sampling and
discount verifications at Bulk Mail Entry Units (BMEU) and drop ship locations.39 The


36
   Boston Consulting Group, Projecting U.S. Mail Volumes to 2020, March 2, 2010, http://about.usps.com/future-
postal-service/gcg-narrative.pdf, p. 12.
37
   Ibid.
38
   Appendix A explains postage payment methods.
39
   For example, U.S. Postal Service Office of Inspector General, Short Paid Postage – Information Based Indicia (IBI)
Priority Mail, Report Number MS-AR-09-001, October 10, 2008 and Short Paid Postage – Information Based Indicia
(IBI) Parcel Post, Report Number MS-AR-09-002, October 14, 2008, and U.S. Government Accounting Office,
Stronger Mail Acceptance Controls Could Help Prevent Revenue Losses, Report No. GGD-96-120, June 1996.


                                                         13
U.S. Postal Service Office of Inspector General                                                             October 6, 2011
Postal Service Revenue                                                                                     RARC-WP-12-002


OIG also found mail-processing equipment that was unable to identify FCM with missing
or insufficient postage and fraudulent indicia.40

                       Figure 7: Domestic Mail Revenue by Entry Point, FY 2010

                                                        Mailer or 
                                                      Intermediary
                                                        $61 billion




                        $4 billion             $8 billion            $17 billion           $32 billion
                          PVI                  Stamps                 Meters                Permit
                 No history of significant  Counterfeiting, but    History of meter  Serious concerns about 
                         losses.                no history of      fraud, but recent  revenue protection 
                                             significant losses.    improvements.        especially with 
                                                                                          worksharing.

Source: FY 2010 Quarterly Statistics Reports and OIG analysis.




Pricing Enhancements

The Postal Service has a number of pricing options available within the existing legal
framework to help fill the revenue gap associated with a projected volume decline of
27 billion pieces from 2009 to 2020.41 Protecting FCM profit contribution while managing
the decline, solidifying market dominant product cost coverage, exploring competitive
pricing best practices, and pursuing simplification opportunities are all strategies that
can have a significant impact on promoting profit contribution.

FCM Pricing: Do No Harm
Postal Service pricing and forecasting models utilize key data such as population and
employment growth to identify and predict changes in mail volume. Even under the
best-case scenario, FCM is not expected to return to its peak volumes.42 To adjust to a
smaller FCM footprint, the Postal Service should manage profits, not volumes. There is
tremendous revenue potential in the remaining volume, and capturing this intrinsic value
is a common business practice. Pricing strategies should segment customers and
enhance the value of FCM to distinct groups.


40
   The OIG’s current audit project, set for release in fall 2011, Strategic Approaches to Revenue Protection
(11RG011MS000), focuses on commercial volume revenue loss. The objective is to evaluate the Postal Service's
revenue protection strategies, identify opportunities for revenue leakage, and suggest potential risk-mitigating
solutions.
41
   The Boston Consulting Group, Projecting U.S. Mail Volumes to 2020, March 2, 2010, http://about.usps.com/future-
postal-service/gcg-narrative.pdf, p. 2.
42
   Ibid.


                                                              14
U.S. Postal Service Office of Inspector General                                                   October 6, 2011
Postal Service Revenue                                                                           RARC-WP-12-002


Measuring the price sensitivity of discrete FCM business segments is a critical priority.
Current estimates suggest that FCM is price inelastic and that recent volume declines
are not related to price. Therefore, it is likely that FCM could weather higher prices.
Alternatively, sales promotions designed to persuade mailers to avoid electronic
alternatives through discounts could fail to bring in additional volume, damage profits,
and lessen the perceived value of FCM.

Market Dominant: Product Cost Coverage
Increasing prices for market dominant products not covering their costs would improve
contribution and could shift volume to products that are profitable. If the Postal Service
raised rates to breakeven levels on all 10 money-losing market dominant products in
2010, the associated revenue increase could have been over $1.6 billion.43 The Postal
Service has taken some actions to address costs for these products. For example, on
July 1, 2010, the Postal Service implemented streamlined flat processing that could cut
losses for Periodicals by one-third.44 However, as profitable FCM volumes continue to
decline, raising prices may be essential for financial viability, as cost savings alone
cannot offset the decrease in profit contribution.

Simplified Pricing
Attracting new mailers is essential to encourage organic revenue growth, and the
success of the Priority Mail Flat Rate Box demonstrates that simplified pricing can
generate new revenue streams. The new Standard Mail simplified address product
named Every Door Direct Mail also seems to be attracting new users of the mail.45
Streamlining standards, products, and pricing structures allows many small to medium
sized mailers direct access to the benefits of commercial mailing without the need to
purchase expensive software or work through a third-party provider. Moreover, ease-of-
use paired with economical prices could help raise volume particularly from those not
currently using the mail. Standardizing and streamlining mailing standards regulations,
re-engineering induction processes, and simplifying complex rate design could help
increase revenue.

Value-based Pricing
Developing robust pricing capabilities will help promote profitable products. Legacy
cost-based prices, which carried over after PAEA legislative changes, resulted from the
application of a mark-up on top of product-specific and allocated network costs. The
past reliance on cost data for the basis of prices limits the Postal Service from pricing
products based on consumer demand or willingness to pay. Competitors employ a
value-based pricing methodology to develop a target price that reflects the worth of the




43
   U.S. Postal Service. Cost and Revenue Analysis (CRA), FY 2010. See Appendix B for details.
44
   “An end to the Postal Service's Wall Street Journal subsidy?” Dead Tree Edition, June 21, 2011.
http://deadtreeedition.blogspot.com/2011/06/end-to-postal-services-wall-street.html.
45
   Alan Robinson, “Every Door Direct Mail - How it is Being Used”, Courier, Express, and Postal Observer, August 31,
2011, http://courierexpressandpostal.blogspot.com/2011_08_01_archive.html.


                                                        15
U.S. Postal Service Office of Inspector General                                                       October 6, 2011
Postal Service Revenue                                                                               RARC-WP-12-002


product to customers. Figure 8 highlights the differences between value-based and
cost-based pricing.46

                             Figure 8: Value-Based Versus Cost-Based Pricing



                                                Value Based Pricing

                 Customers              Value             Price            Cost            Product



                  Product               Cost              Price            Value           Customers


                                                Cost Based Pricing

Source: “Pricing Innovation for a Transitioning Postal Service Administration,” in Competitive Transformation of the
        Postal and Delivery Sector.


In a cost-based pricing scenario, a firm calculates all the corresponding component
costs related to a product and then applies a margin to propose a total price. In a value-
based methodology, a firm first conducts research to determine a customer’s business
need as well as the value of the product or willingness to pay. Once the value is
determined, a firm can decide if it can profitably offer the product at that price. If not, the
firm can either attempt to decrease costs or choose not to offer the product.

Similarly, competitors raise prices related to rising costs when customers are willing to
pay. For example, in addition to base rate increases of 6.9 percent on Next Day Air, 2nd
Day Air, and 3 Day Select and 4.9 percent on Ground from 2009 to 2010,47 UPS had
fuel surcharge increases, as shown in Table 5, in addition to residential and other ZIP
code-based surcharges. UPS successfully mitigated input cost fluctuation risk by
determining consumers’ willingness to pay and passing along the associated costs.

                             Table 6: UPS Fuel Surcharges, FY 2008 to FY 2010
                                                               Year End

                                    Product               2010        2009         2008

                             Next Day Air/Deferred             8.0%       4.0%     25.2%
                             Ground                            5.6%       3.3%      8.0%
                            Source: United Parcel Service 2010 Annual Report, p. 26.




46
   Mohammad Adra, Ali Ayub, Charles Crum, Michael Plunkett, “Pricing Innovation for a Transitioning Postal Service
Administration,” in Competitive Transformation of the Postal and Delivery Sector, edited by M.A. Crew and P.R.
Kleindorfer (Kluwer Academic Publishers, 2003), p. 375.
47
   United Parcel Service, 2010 Annual Report, http://phx.corporate-
ir.net/External.File?item=UGFyZW50SUQ9ODUzODd8Q2hpbGRJRD0tMXxUeXBlPTM=&t=1, p. 26.


                                                          16
U.S. Postal Service Office of Inspector General                                                  October 6, 2011
Postal Service Revenue                                                                          RARC-WP-12-002


Conversely, the Postal Service did not implement a rate increase on market dominant
products and only a 4.5 percent increase on Express Mail and 3.3 percent on Priority
Mail while maintaining a no surcharge policy.48 Yet the Postal Service is vulnerable to at
least the same input cost fluctuations. It estimates that a 1 percent increase in fuel cost
will result in $23 million in additional expense.49 Market research and data collection
may reveal that although consumers vocalize opposition to fuel surcharges and other
additional fees, they are actually an acceptable way to hedge such risks and protect
revenue. Just as airlines implemented baggage fees, once considered unimaginable,
they are now the industry norm despite initial strong and vocal opposition.50

Marketing and Product Development Opportunities

As traditional sources of revenue decline in an increasingly digital world, new prospects
emerge. However, PAEA is actually more restrictive than the previous law in allowing
the Postal Service to develop new and improved products and services. Modest
flexibility is required to take advantage of emerging opportunities and secure a share of
growing markets. For example, the financial crisis fueled a contraction in the global
parcel trade, but analysts indicate that cross-border e-commerce will grow dramatically
and rebound with consumer confidence.51 The Postal Service could pursue new uses of
mail and develop linkages to the traditional business to keep mail relevant.

International Mail Offers Growth Potential
Although a relatively small portion of the Postal Service’s business, revenues from
International totaled approximately $2.4 billion in FY 2010.52 Analysts project that global
Internet sales will reach about $489 billion in 2012, compared with $315 billion in 2009,
making this an opportunity for growth; however, 70 percent of these sales will originate
outside the United States, as only half of domestic retailers currently have global-scale
Internet capabilities.53 Providers who can create customized solutions that help shippers
navigate the complicated international marketplace will attract new business. So far, the
Postal Service has successfully enacted comprehensive bilateral agreements with
foreign posts, developed a small packet or “e-packet” product, and completed numerous
Negotiated Service Agreements (NSAs). Consumers will be attracted to providers who
deliver superior logistics, returns, security, and authentication services globally.
Therefore, the Postal Service has an opportunity to continue developing border-free
logistics innovations, such as a cost-effective method for retailers to clear customs and
remit duties, taxes, and shipping costs to the appropriate parties, while providing the
end consumer with one comprehensive price.
48
   U.S. Postal Service, “January 2, 2010 Shipping Services Price Change Frequently Asked Questions,” p. 2.
http://pe.usps.com/PriceChange/2010_Shipping_Price_Change_FAQ.pdf
49
   U.S. Postal Service, 2010 Annual Report, http://www.usps.com/financials/_pdf/annual_report_2010.pdf, p. 35.
50
   It is important to recognize that there is often a difference between a customer’s stated and revealed price
sensitivity. Therefore, customers may find enough value in the product that they will accept higher prices.
51
   International Post Corporation, “IPC Global Industry Report,” (Brussels: IPC Markets and Communication, 2010),
slide 29.
52
   James Cartledge, “USPS eyes growth opportunities in its global business,” Post & Parcel, June 20, 2011.
http://postandparcel.info/40105/in-depth/usps-eyes-growth-opportunities-in-its-global-business/.
53
   Bob Sechler, “Package shippers eye cross-border ecommerce as key emerging market,” The Wall Street Journal,
May 17, 2011.


                                                        17
U.S. Postal Service Office of Inspector General                                                      October 6, 2011
Postal Service Revenue                                                                              RARC-WP-12-002


Enhance Existing Products
The Postal Service is working toward modifying its current product lines to provide full
track and trace, mobile capabilities and other features that create the broad solutions
that customers value. Going forward, other core product enhancements provide new
opportunities. A 2010 International Postal Corporation (IPC) study highlighted some
options for posts to explore, such as increased flexibility for retrieving parcels, improved
information management systems that provide real-time visibility to returns, enhanced
customer service, and customized e-commerce solutions.54 Additionally, new marketing
programs with compelling value propositions could attract new customers as well as
engage existing mailers. The Postal Service should ensure that these new business
opportunities do not come at the expense of profit contribution.

Key Account Management
The Postal Service is actively seeking a larger share of the $90 billion national media
advertising market.55 The Mail Works Guarantee promotion taps this revenue potential
by giving companies with large advertising budgets incentives to adopt advertising mail.
A company spending at least $250 million per year on advertising receives a postage
reimbursement if the direct mail campaign results fall short of certain thresholds. Such a
guarantee could tempt new mailers to try direct mail while providing huge organic
growth prospects for the Postal Service. For example, if a company like General Motors
participated and devoted merely an extra 1 percent of its advertising budget to direct
mail in 2010, it potentially could have created $51 million dollars in revenue for the
Postal Service.56 However, it is important to note that while revenue is important, the
key metric is profit contribution.

Promotions and Negotiated Service Agreements
Under PAEA, the PRC approved pricing initiatives, several experimental product tests,
and hundreds of NSAs. The Postal Service can continue to bundle traditional products
to generate new revenue streams and enhance cost coverage. However, the revenue
generated by these ventures is not sufficient to stem the financial losses resulting from
FCM decline.57

New Product Development within the Core Business
Table 7 highlights both recent existing initiatives permissible under the current
framework as well as likely permissible new ideas presented in previous OIG work.58

54
   International Post Corporation, “IPC Cross Border E-Commerce Report,” slides 34 and 39.
55
   James Cartledge, “Money Back Guarantee for US advertisers to try direct mail,” Post & Parcel, April 18, 2011.
http://postandparcel.info/38225/news/money-back-guarantee-for-us-advertisers-to-try-direct-mail/.
56
   General Motors Company, Annual Report 2010, http://investor.gm.com/pdfs/Annual%20Report.pdf, p. 51.
57
   Testimony of Chairman Ruth Y. Goldway, Postal Regulatory Commission, before the U.S. Senate Homeland
Security and Governmental Affairs Committee’s Subcommittee on Federal Financial Management, Government
Information, Federal Services, and International Security, “Addressing the U.S. Postal Service’s Financial Crisis,” May
17, 2011.
58
   U.S. Postal Service Office of Inspector General, The Postal Service Role in the Digital Age Part 1, Report No.
RARC-WP-11-002, http://www.uspsoig.gov/foia_files/RARC-WP-11-002.pdf, The Postal Service Role in the Digital
Age Part 2, Report No. RARC-WP-11-003, http://www.uspsoig.gov/foia_files/RARC-WP-11-003.pdf, and Revenue
Generation Strategic Report, Report No. MS-MA-10-002, http://www.uspsoig.gov/FOIA_files/MS-MA-10-002.pdf.


                                                          18
U.S. Postal Service Office of Inspector General                                                           October 6, 2011
Postal Service Revenue                                                                                   RARC-WP-12-002


The latest product proposals and offerings are innovative, yet linked to the Postal
Service’s core business — raising hopes that opportunities still lie within the existing
product lines. Fifteen years ago, no one would have expected a company like Netflix to
create an entirely new FCM product, but by FY 2010 it became one of the Postal
Service’s top customers and generated hundreds of millions in revenue. Yet, there are a
number of concerns related to new initiatives as to whether: 1) the new products or
services can generate sufficient revenue and profit to address declines in other areas or
2) if they will fit within the legal or political framework that currently exists. PAEA limits a
new offering to relate to “the delivery of letters, printed matter, or mailable packages,
including acceptance, collection, sorting, transportation, or other functions ancillary
thereto”.59 Will potential new opportunities be classified under “ancillary service”
provisions or tested as an experimental product?60 Will the Postal Service be allowed to
take advantage of other profitable opportunities for which it is well suited? Many
questions remain.

                        Table 7: Examples of Initiatives Feasible under Current Framework

     Product/Service                                      Description
     Sampling                                             Partnering with marketing firm StartSampling to
                                                          consolidate the product samples in a box and ship it. 
                                                          The Postal Service collects postage and a fee.
     Every Door Direct Mail                               Employs a simplified address service for small 
                                                          businesses which waives permit fees and requirements 
                                                          for individual addresses to facilitate local based 
                                                          advertising campaigns. This could offer small businesses 
                                                          a simple, low cost means of distributing advertisements. 
     Hybrid Mail                                          Convert digital documents to physical and vice versa for 
                                                          senders and receivers.
     Digital Platform                                     Provide secure transactions and identity verification 
                                                          between customers, businesses, and government 
                                                          entities. Extend the Postal Service’s physical platform 
                                                          into the digital realm by enabling traditional  service 
                                                          providers and entrepreneurial “applications 
                                                          developers,” to generate new physical and digital postal 
                                                          services that meet customers changing needs. 
     Standard Defined Day  & Deferred Delivery  w/        Bulk printing, online/hybrid printing, and geographic 
     Ancillary Services                                   targeting on mail piece and delivery date selection.
     Post Office Box/Pack Station                         Provide real time notification of delivery and alternative 
                                                          locations for pick up.
     Address List Database                                Leverage  value of address list  database for uses such as 
                                                          demographic targeting.




59
  39 U.S.C §102(5).
60
  The PAEA, Section 203 (codified at 39 USC §3641) describes the conditions necessary for carrying out a market
test for experimental products including 1) “significantly different” or novel and 2) cannot create an unfair competitive
advantage.


                                                           19
U.S. Postal Service Office of Inspector General                                                            October 6, 2011
Postal Service Revenue                                                                                    RARC-WP-12-002


Revenue Possibilities under an Alternative Framework
McKinsey & Company’s March 2, 2010, action plan for financial viability outlined a
balanced strategy of cost reduction and revenue generation to meet America’s changing
needs. The plan also highlighted that substantive change beyond cost cutting, easing
prefunding requirements, and correcting overpayments to pension funds is necessary
for the Postal Service to uphold its mission to bind the nation together in a new era.

Barriers to the Path Forward

If the Postal Service is to capture new sources of revenue in order to continue to
operate as a self-funded organization that also meets the needs of the American
people, varied stakeholders need to address some fundamental questions. The
flexibility to pursue new opportunities will require access to capital, developing new
competencies, labor flexibility, diversification of product lines, adjusting the cost
structure, and the authority to expand beyond the narrow, hard-copy core.61 These
types of considerations fall into five categories: statutory, regulatory, institutional,
political, and financial.

Statutory
Some future possibilities require flexibility not presently permissible in the current law,
which:
   1. Prevents the Postal Service from offering new nonpostal products and services.
   2. Establishes arduous market test requirements in terms of recouping start-up
       costs and caps projects at a $10 million revenue limit in any one year.62
   3. Requires full cost recovery within two years to show cost coverage compliance.63
       This amortization timeline is inconsistent with typical start-up projects that often
       do not break even for many years.
   4. Caps prices, by class, at CPI — a measure unrelated to Postal Service costs.

Regulatory
Regulatory burdens come in a number of forms:
  1. Although improved, the preparation and review process for pricing and new
      product approvals puts the Postal Service at a competitive disadvantage in terms
      of speed to market.
  2. Transparency requirements, although prudent, make operating in a competitive
      marketplace difficult. Successful implementation of new products and services
      might require speed and confidentiality first and transparency second.

61
   Accenture, Is Diversification the Answer to Mail Woes? The Experience of International Posts, February 2010,
http://about.usps.com/future-postal-service/accenture-presentation.pdf.
62
   James Cartledge, “USPS needs ’incubation space’ to address digital challenge,” Post & Parcel. June 17, 2011.
http://postandparcel.info/40050/news/usps-needs-incubation-space-to-address-digital-challenge/. Exception authority
details are noted in PAEA, Section 203 (codified at 39 U.S.C. §3641), if revenues do not exceed $50 million in any
one year if “(A) the product likely to benefit the public and meet an expected demand; (B) the product likely to
contribute to the financial stability of the Postal Service; and (C) the product is not likely to result in unfair or otherwise
inappropriate competition.”
63
   The PAEA, Section 203 (codified at 39 U.S.C. §3641).


                                                              20
U.S. Postal Service Office of Inspector General                                                   October 6, 2011
Postal Service Revenue                                                                           RARC-WP-12-002


    3. Some stakeholders voice concerns about the appropriateness of the Postal
       Service operating in new arenas.

Institutional
The Postal Service faces unique internal challenges as well:
   1. Existing skills and competencies in mail do not necessarily provide synergies or
      the capabilities necessary to compete in new business areas including the digital
      space.64
   2. Long time horizons and acquisitions may be necessary to develop requisite
      competencies.65
   3. A crucial component to successful new ventures is a corporate culture that
      embraces experimentation, even at the risk of early failure.66 Sustaining a
      management commitment and strategic vision beyond traditional mail business is
      essential as well.

Political
The political environment also challenges efforts to define the future role for the Postal
Service:
      1. Motivated and well-organized opponents to new product introductions and
           entrance into new sectors.
      2. Many stakeholders with varied interests as well as uncertain support in
           congressional and PRC proceedings.
      3. Competing policy considerations about proper revenue opportunities and the
           role for the Postal Service.
      4. Strong opposition to price increases, which differs from comparative,
           anecdotal, and economic measures of customer response.

Financial
Regardless of the source of the Postal Service’s financial difficulties, these financial
constraints currently limit the Postal Service’s options:

        1. The Postal Service lacks the operating capital to invest in both revenue
           generating and cost reducing initiatives.

The resolution to these considerations is best developed by policymakers and the
Postal Service, and is outside the scope of this paper. The Postal Service can continue
to cut costs, right size its network, and foster new revenue sources within the existing
framework; however, decisions will be necessary in order for the Postal Service to
explore new options to remain financially viable.



64
   Accenture. Is Diversification the Answer to Mail Woes? The Experience of International Posts, February 2010,
http://about.usps.com/future-postal-service/accenture-presentation.pdf, slide 32.
65
   Ibid.
66
   ”How Failure Breeds Success,” Bloomberg Businessweek, July 10, 2006.
http://www.businessweek.com/magazine/content/06_28/b3992001.htm


                                                         21
U.S. Postal Service Office of Inspector General                                                        October 6, 2011
Postal Service Revenue                                                                                RARC-WP-12-002


Possibilities under an Alternative Framework

Two levers of revenue generation potential, outside the current legislative framework,
are pricing as well as diversification into new products, services, and sectors.

Pricing: A Strategic Asset
The 2006 PAEA legislation did not anticipate recent volume declines or understand the
impact of the large prefunding mandates, and so introduced a pricing restriction that
capped market dominant price increases to the Consumer Price Index (CPI) by class.67
Under the current price cap, the Postal Service lacks the practical flexibility or the will to
make adjustments to permit revenue to cover costs. Permitting modifications to the CPI-
based price cap could allow the Postal Service to pay for existing unfunded mandates
and deal with future external shocks outside the control of management. One approach
is to apply the cap across all market dominant products, rather than by class. Another
approach could be to move Standard Mail (which is part of an active advertising market)
into the competitive category. Refinements to the cap can also continue to incentivize
efficient management of the Postal Service and its physical networks in particular.
Permitting the regulator to adjust the price cap to better match Postal Service expenses,
as opposed to a generic measurement of inflation, could also help to address the issue
of the gap between revenues and costs.

Faced with a mature, declining core business, and with growth areas such as parcels,
which are presumably not large enough to compensate for the decline, the Postal
Service could benefit from a more business-like approach to pricing. Even if deemed
technically permissible under PAEA, such a change would be extremely difficult to
implement in the current context. By reclassifying its products and raising some prices
while lowering others, the Postal Service could mirror successful private-sector
approaches and get all the revenue it can from no-growth mature products while
encouraging the growth of other areas through discounts. An attractive target for price
increases would be segments with low price elasticities, which suggests modest price
changes would have relatively minor effects on volume. The inverse is true for
segments with higher price elasticities, where customers would be more likely to
respond to price decreases with additional volume.68

New market research could help fine-tune segments to simultaneously meet customer
needs and generate revenue. The Postal Service could consider widening the gap
between FCM and Standard Mail pricing and service to stave off substitution and
protect margins. FCM prices at 50 cents, 75 cents, or even well over $1 have been
successful in other postal markets and could provide an example for the Postal Service
to follow. In fact, the current FCM Single-Piece rate in the United States is only a little
over one-third the average rate within the European Union.69 The Postal Service is

67
   McKinsey & Company, USPS Future Business Model, March 2, 2010, http://about.usps.com/future-postal-
service/mckinsey-usps-future-bus-model2.pdf, slide 4.
68
   It is important to note that none of the major mail categories are technically “price elastic” — meaning that a price
decrease would result in increased revenue.
69
   Please see Appendix C for a comparison between prices within the European Union and U.S. Postal Service FCM
prices.


                                                           22
U.S. Postal Service Office of Inspector General                                                      October 6, 2011
Postal Service Revenue                                                                              RARC-WP-12-002


currently constrained in its pricing authority, but solid market research and business
analytics could lay the foundation for adjusting current limits that keep its rates
disconnected from the rest of the industrialized world.

Diversification: New Sectors, Products & Services
In order to address structural problems like decreased relevance, liberalization, and the
resulting rise in USO costs, international posts pursued a broad range of diversification
opportunities outside of traditional mail that provide significant financial benefits.70 Many
of these posts are consistently profitable even in the face of volume declines in
traditional services. The Postal Service is in an unfavorable position due to an
undiversified portfolio, which increases exposure to financial risks caused by declining
mail volumes. Figure 9 below shows the proportion of non-mail revenue generated by
the world’s major industrialized posts.71

                            Figure 9: Proportion of Non-Mail Revenue, by Post




Source: Accenture, “Diversification of International Posts,” February 2010.


It is important to note the dramatic difference in the proportion of revenue collected from
non-mail products between the U.S. Postal Service and major foreign posts. The gap is
large and has been growing. The collective non-mail revenue at foreign posts grew from
49 percent in 2003 to 63 percent in 2008. In fact, non-mail revenue accounted for
revenue growth of more than 100 percent at foreign posts between 2003 and 2008.72
Notably, logistics, retail, and banking services provided substantial non-mail revenue
diversification opportunities.73
70
   Accenture, Is Diversification the Answer to Mail Woes? The Experience of International Posts, February 2010,
http://about.usps.com/future-postal-service/accenture-presentation.pdf, slide 27.
71
   In FY 2011, this figure was 15 percent for the U.S. Postal Service. Accenture, Is Diversification the Answer to Mail
Woes? The Experience of International Posts, February 2010, http://about.usps.com/future-postal-service/accenture-
presentation.pdf, slide 40.
72
   Ibid., slide 27. Note that some of the posts with the highest proportion of non-mail revenue (such as Japan Post)
are engaged in lucrative insurance and banking businesses.
73
   Ibid.


                                                          23
U.S. Postal Service Office of Inspector General                                                      October 6, 2011
Postal Service Revenue                                                                              RARC-WP-12-002



Diversification, however, is not without risk. Success requires resources to develop new
capabilities and the time to foster profitable new businesses without regulatory pressure
to produce results immediately. Regardless of the long term value of developing new
areas, it will take time to see significant results. Moreover, it would likely require new
thinking, training, personnel, business partners, and perhaps significant changes to the
core business model. Not all opportunities explored by foreign posts make sense with
the Postal Service’s core strengths and mandate and many require financial investment
resources the Postal Service currently lacks. Yet, the time to evaluate these new
revenue sources is now, as the Postal Service’s financial health is inextricably tied to
the hard-copy mail market, which is profitable but also perceived to be in general
decline.

As the OIG has advocated, ancillary services can link the digital and physical world.74 In
particular, the development of a secure eMailbox that serves as a digital counterpart to
the physical mailbox and links to one’s physical address would serve as a foundation for
a full spectrum of potential products and services. From identity authentication and the
expansion of eGovernment services to hybrid and reverse hybrid applications to
enhanced eCommerce and on-line applications, the Postal Service would be well
positioned to reach every household and business both physically and digitally. And by
partnering with the private sector, such new products and services would leverage
external innovation and expertise with the Postal Service’s core assets such as its reach
into every household, address management system, and extensive retail network.


Conclusion
This paper presents options to protect and grow existing revenue sources and drive
profitable growth within the existing framework. Ultimately, the Postal Service cannot
focus on cost cutting alone. It must both cut costs to meet its new footprint and utilize
the flexibility it has to raise revenues in order to maintain its mission to provide universal
service to the American people. Although some note that the returns on investment on
new endeavors may be less than that for FCM, like similar organizations, the Postal
Service will need to look for revenue growth opportunities both within and beyond its
declining traditional business. It will also need to evolve and adapt to the
communications revolution and meet the changing needs of the people that it was
created to serve. Disruptive innovation, such as that underway in the communications
sphere, requires significant change and the support of varied stakeholders.75 At least
some agreement by these parties will be necessary to give the Postal Service the
flexibility it needs to pursue new options and move beyond the critical crossroad it faces
today. Although change implies risk, the greater risk is waiting until it is too late and
destroying an important institution that can still be saved.


74
   U.S. Postal Service Office of Inspector General, The Postal Service Role in the Digital Age Part 2, Report No.
RARC-WP-11-003, April 19, 2011, www.uspsoig.gov/foia_files/RARC-WP-11-003.pdf.
75
   Don McCrae, “Miss the Big Picture, Fade Like Polaroid,” Bloomberg Business Week, October 23, 2002,
http://www.businessweek.com/careers/content/oct2002/ca20021023_9615.htm.


                                                          24
U.S. Postal Service Office of Inspector General           October 6, 2011
Postal Service Revenue                                   RARC-WP-12-002




                                            Appendices




                                                  25
U.S. Postal Service Office of Inspector General                              October 6, 2011
Postal Service Revenue                                                      RARC-WP-12-002



Appendix A               Postage Payment Methods

PVI – Postal Service window clerks apply Postage Validation Imprinter (PVI) labels to
mail pieces at post offices after payment is provided by the customer. Pieces are then
directly inducted into the postal network. This method is used primarily by individuals
and very small businesses.

Stamps – Customers can purchase stamps at a variety of locations (Post Offices,
USPS.com, third-party distribution sites) and apply postage directly to their mail pieces
by hand. They can then deposit the pieces in collection boxes, in their own mail boxes,
or at post offices. This method is used primarily by individuals, though some large
customers use stamps (regular or precanceled) and deposit their mail pieces at bulk
entry locations. With precanceled stamps, mailers generally must pay (or be refunded)
the difference between the implied stamp value and the actual postage cost to the
Postal Service at the time of bulk entry.

Meter – Customers who have meters can apply postage directly to their mail pieces or
onto a meter tape that is applied to the mail piece. Postage is prepaid and entered into
the meter. Meters range from very small and hand fed to very large and automated.
Mailers can deposit their pieces in collection boxes, at post offices, or bulk entry
locations. This method is used primarily by small and medium-sized business mailers.

Permit – Permit Imprint is the most common way to pay for postage, particularly for
large mailings. The mailer generally prints postage-related information in the upper
right-hand corner of the mail piece. All Permit mail is bulk entered and includes a
postage statement that describes the mail type and volume. Postage value is deducted
from the mailer’s prepaid Permit account when it is accepted and inducted into the
postal system.




                                                  26
U.S. Postal Service Office of Inspector General                                                   October 6, 2011
Postal Service Revenue                                                                           RARC-WP-12-002



Appendix B               Market Dominant Money Losing Products 2010




  Note: This does not account for the expected volume decrease in response to price increases.
  Source: U.S. Postal Service, Cost and Revenue Analysis (CRA), FY 2010.




                                                       27
U.S. Postal Service Office of Inspector General                                                    October 6, 2011
Postal Service Revenue                                                                            RARC-WP-12-002



Appendix C                 Nominal Prices for Letter Mail within Europe




Note: The prices are in Euros and are for the 3-day rate within Europe. Utilizing a September 2011 exchange
      rate, results in a price range from $0.50 in Malta to $2.49 in Portugal. The comparable price within the
      United States is $0.44 or a little over one-third the average price within Europe. Note that this does not
      match the intra-country prices charged by these countries. For a comparison to large, intra-country prices
      outside of Europe, note that both Canada (including VAT) and Australia charge an equivalent rate of
      approximately USD $0.64 or 20 cents more per piece than the current U.S. Postal Service price.

Source: Deutsche Post, Letter Prices in Europe Up-to-date international letter price survey, March 2011, p. 11.




                                                         28
